Audit of the Accuracy of NARA’s
Performance Measurement Data

    OIG Audit Report No. 10-13



           July 15, 2010
                                                                                      OIG Audit Report No. 10-13




Executive Summary
The Office of Inspector General (OIG) has completed an audit designed to evaluate and
report upon the accuracy and reliability of performance data entered into the National
Archives and Records Administration (NARA) Performance Measurement and Reporting
System (PMRS). The Government Performance and Results Act (GPRA) 1 of 1993
require the head of each federal agency to develop and track performance and to report
annually to the President and Congress. Our overall objective was to verify the accuracy
and reliability of performance data entered into NARA’s PMRS. We reviewed data
collected for nine performance measurements related to three critical areas:

1. Preserve and Process,
2. Access,
3. Infrastructure.

Of the thirty seven FY 2009 performance metrics 2 identified by NARA we selected nine
for evaluation in this annual cycle. Of the nine selected, auditors identified problems
with five metrics (see column 2 of Attachment I). For four of these metrics we
determined that data entered into NARA’s PMRS was either inaccurate or was not
adequately documented. Thus, adequate reliance could not be placed upon this data.
This condition existed because management controls over the maintenance of
documentation and verification of performance data were not adequate. Without the
establishment of appropriate management controls there is a risk performance data could
be unreliable. Given unreliable or flawed data, users of the data could make inaccurate
management decisions to the detriment of agency operations.

In the case of the fifth metric identified as #2.1: Percent of Scheduled Transfers of
Archival Records Transferred to NARA at the Scheduled Time, we found the data as
reported to be flawed and misleading as it is composed of a very limited subset and not
the total universe of electronic records available for transfer. Without a caveat defining
this limitation on scope, users of this data could readily misconstrue the content and value
of this information as to embrace a far wider population then actually defined. This could
lead to inaccurate conclusions and determinations by stakeholders.

Management concurred with the two recommendations contained in this report which,
when implemented, will help ensure the accuracy and reliability of future data entered
into PMRS.
1
  Congress enacted GPRA in 1993 to improve public confidence in the Federal Government by holding
agencies accountable through setting program goals, measuring performance against those goals, and
reporting publicly on progress. This act is contained in Public Law 103-62. NARA submits an annual
Performance report to Congress, the President, and the public November 15 each year which reports
NARA’s efforts to meet performance goals as outlined in its strategic plan.
2
  The FY 2009 Annual Performance Plan established thirty seven performance metrics to be used in
assessing program performance towards accomplishing NARA’s six strategic goals. The six strategic goals
are: 1) Our Nation’s Record Keeper, 2) Preserve and Process, 3) Electronic Records, 4) Access, 5) Civic
Literacy, and 6) Infrastructure.

                                           Page 1
                        National Archives and Records Administration
                                                                          OIG Audit Report No. 10-13




Background
The Government Performance Results Act of 1993 (GPRA) requires federal agencies to
complete strategic plans in which they define their missions, establish results-oriented
goals, and identify the strategies needed to achieve those goals. GPRA also requires
federal agencies to prepare annual performance plans articulating goals for the upcoming
fiscal year that are aligned with their long-term strategic goals. Finally, GPRA requires
agencies to measure performance toward the achievement of the goals in the annual
performance plan and report annually on their progress in program performance reports.

Congress passed GPRA because it found, in part, federal managers were seriously
disadvantaged in their efforts to improve program efficiency and effectiveness due to
insufficient articulation of program goals and inadequate information on program
performance. Congressional policymaking, spending decisions, and program oversight
was also handicapped by insufficient attention to program performance and results.
GPRA was passed by Congress to alleviate these problems by requiring federal agencies
to incorporate strategic planning and performance measurement into agency management
and to improve the confidence of the American people in the capability of the federal
government.

By systematically holding federal agencies accountable for achieving program results,
GPRA is intended to improve congressional decision making by giving Congress
comprehensive and reliable information on the extent to which federal programs are
fulfilling their statutory intent. Managers are to use performance information to
continuously improve organizational processes, identify performance gaps, and set
improvement goals. Decision makers are to routinely receive the performance and cost
information needed to assess their programs and make informed decisions.

NARA’s Policy and Planning Staff (NPOL) is responsible for performance reporting as
outlined by GPRA. NPOL is tasked with collecting and reporting performance
information from databases created by others and from a PMRS web application. PMRS
is the official source for statistical management information at NARA. Specifically,
PMRS reports how NARA is doing relative to the numeric goals in NARA's Strategic
Plan and the various annual performance plans. NARA reports on their progress in
annual performance reports submitted to the President and Congress. PMRS publishes
figures on about fifty subject areas, collecting data monthly from approximately seventy
organizational units. The data collected is published on NARA’s internal website,
www.nara-at-work.gov.

This audit represents the latest in an ongoing process by which the OIG reviews
individual performance metrics on a periodic basis.




                                        Page 2
                     National Archives and Records Administration
                                                                           OIG Audit Report No. 10-13




Objectives, Scope, and Methodology
Our overall objective was to verify the accuracy and reliability of performance data
entered into NARA’s PMRS. We reviewed data collected for nine performance
measurements related to three critical areas:

   1. Preserve and Process,
   2. Access,
   3. Infrastructure.

Specifically, we examined the accuracy of data for nine metrics (see Attachment 1). To
achieve our objectives, we interviewed officials in the Policy and Communications Staff
(NPOL), Office of Records Services – Washington, DC (NW), Office of Presidential
Libraries (NL), Office of Regional Records Services (NR), Dwight D. Eisenhower
Library, Lyndon Baines Johnson Library, and Southeast Region (NRC).
We reviewed the NARA Strategic Plan 2006-2016, Fiscal Year (FY) 2009 Performance
Plan, guidance related to PMRS metric specifications, Government Performance And
Results Act of 1993 and the Office of Management and Budget's Circular A-11 Part 6,
Preparation and Submission of Strategic Plans, Annual Performance Plans, and Annual
Program Performance Reports.

This performance audit was conducted in accordance with generally accepted
government auditing standards (GAGAS) between March 2009 and December 2009.
These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




                                        Page 3
                     National Archives and Records Administration
                                                                                         OIG Audit Report No. 10-13



Management Controls Over PMRS Data Require Enhancement

NARA lacks adequate management controls over the maintenance and verification of
PMRS performance data. This condition exists because NARA’s Office of Policy and
Planning (NPOL) has not provided guidance and established a framework necessary to
ensure the accuracy and integrity of PMRS data. NARA operating units are not required
to establish and follow written policies and procedures to appropriately capture,
document and ultimately validate data entered into PMRS. Federal regulations
specifically identified under OMB Circular A-123 require agency management to ensure
reported performance data is properly documented and verified. In order for NARA to
provide accurate and reliable data the establishment of formal, documented controls
including described processes for the maintenance and verification of performance data
must be established. Without appropriate management controls the risk exists that
performance data could be flawed and inaccurate thus compromising the intent of the
Act.

NARA Lacks PMRS Supporting Documentation

Sufficient source documentation was not maintained for three metrics reviewed;
therefore, we could not validate the accuracy and reliability of the data contained in
PMRS for these metrics. OMB Circular A-11 states federal agencies are required to
assess the completeness and reliability of performance data reported. GAO Standards for
Internal Control in the Federal Government states all federal transactions need to be
clearly documented and readily available for examination. Required documentation
should appear in management directives, administrative policies, or operating manuals.
All documentation and records should be properly managed and maintained.

Specifically, we found adequate support documentation did not exist for the following
metrics:

    1. Metric # 2.2 Percent of Archival Traditional Holdings that Have Been Processed
       to the Point Where Researchers Can Have Efficient Access to Them for the
       Dwight D. Eisenhower Library (NLDDE): The calculation for presidential library
       holdings is as follows:

                 Total cubic feet of traditional records ever processed X 100
                          Total cubic feet of traditional records

        The numerator data on total processed records could not be verified because the
        data for this metric was an estimate and actual data 3 had not been obtained.
        NARA personnel responsible for collecting and reporting data for this metric
        stated that prior to October 2008, this measure was never traced or reported and
        was initiated with an estimate based on a historical number of total processed

3
 Performance data being reported is a composite of (1) an estimate based on a historical number of total
processed records prior to FY 2008 and (2) actual data that has been accumulated since October 2008.

                                            Page 4
                         National Archives and Records Administration
                                                                                        OIG Audit Report No. 10-13



        records. No documentation was made available to the auditors to define how this
        estimate was actually calculated. NLDDE is currently establishing a Master List
        Register (MLR) 4 access database that will identify the actual total cubic feet of
        traditional records processed. At the time of the audit NLDDE reported the MLR
        was approximately 75% complete and they were not sure when the remaining
        work to complete the list would be completed. Until NLDDE finishes their MLR
        this metric will not be completely accurate or valid and properly reported in
        PMRS.

    2. Metric # 2.7 Percent of NARA Archival Holdings Requiring Preservation Action:
       The calculation for this metric is as follows:

                 Backlog of archival holdings that require preservation action X 100
                             Total cubic feet of archival holdings

        The back log is calculated as follows: Base-line at-risk backlog less holdings
        treated plus new accessions (multiplied by the at-risk percentage). The
        documentation supporting the base-line at-risk backlog and the at-risk percentages
        applied was not available for verification. Both the baseline backlog and the at-
        risk percentage were established by an extensive condition survey 5 performed in
        FY 2005. The data acquired to support this condition survey was misplaced and
        was not available for our review per responsible preservation programs (NWT)
        personnel. NWT senior officials expressed their regret concerning the
        misplacement of the survey data and stated the data should have been available
        for examination.

    3. Metric # 6.3 Percent of Public Network Applications Availability: The calculation
       for this metric is as follows:

                 # of actual hours of availability of public network applications X 100
                                  Total # of hours (24*7) in the period

        Documentation for actual hours of public network applications availability was
        not adequately maintained. Responsible NARA personnel were able to provide
        email documentation 6 identifying the hours of downtime per month. These
        emails were initiated by various NARA IT contractors and identified the number
        of downtime hours for the month. This is insufficient documentation for metric

4
  The Master Location Register (MLR) is a database that maintains location data and related information
for textual holdings including data identifying which records have been processed.
5
  Office of Records Services-Washington D.C. (NW) conducted an extensive survey, composed of
approximately 1,800 sample sets, for the purpose of evaluating the textual preservation needs of NW
holdings. The results of this survey indicate 67%, or 1,390,000 cubic feet (base-line at risk backlog) of
NW’s textual holdings require some type of preservation work.
6
  Auditors reviewed six of the ten applications included in this performance measurement. Of the six
applications reviewed most, but not all, reported downtime was supported with email documentation. The
email documentation was not sufficient because details such as dates of downtime, reason for downtime,
and sign-off by a responsible NARA employee were not included.

                                            Page 5
                         National Archives and Records Administration
                                                                                        OIG Audit Report No. 10-13



        performance because details such as dates of downtime, reason for downtime, and
        sign-off by a NARA employee were not included in the emails. One NARA
        official we interviewed believed the IT contractors were documenting these
        elements in a Problem Incident Report (PIR) 7 for each downtime event.
        However, the IT contractors were unable to provide any additional
        documentation. Thus, we were unable to determine whether the reported
        downtime was accurate or had been properly verified by NARA staff. At a
        minimum, monthly reports detailing each public network application’s scheduled
        and unscheduled downtime with associated times and dates would be required to
        adequately document the data collected. Additionally, the responsible NARA
        official(s) should attest to the report’s accuracy and completeness. Ideally, a
        report from a logging system that supports downtime events should be included
        with the monthly public network application downtime reports.

NARA Continues to Lack Data Verification Procedures

NARA has not established procedures to ensure performance data is accurate and
reliable. Specifically, NPOL has not developed verification guidance requiring those
collecting data to (1) verify the collected data for accuracy and (2) reconcile source
documentation to the data reported in PMRS. OMB Circular A-123 states agency
management must ensure internal controls such as periodic reviews, reconciliations or
comparisons of performance data are implemented. Further, these defined controls
should be included as part of the regular assigned duties of personnel. Without
appropriate verification procedures there is an increased risk reported performance
statistics are inaccurate and could impact upon management’s ability to make informed
decisions. It should be noted that data verification weaknesses have been identified in
specific program offices in three prior PMRS audits. A lack of established verification
procedures appears to be more universal than originally reported.

Specifically, we found the following:

    •   Data reported for one of the nine metrics we reviewed was misreported. The
        metric # 2.4 entitled Annual Number of Federal Pages Declassified (in thousands)
        was underreported on NARA’s Performance and Accountability Report, FY 2009
        by 1.266 million pages. NARA reported 11.72 million pages declassified and
        should have reported 12.986 million; an eleven percent difference. The
        Supervising Archivist responsible for reporting data to PMRS stated there were
        several months in which support documentation received was incorrectly reported
        to PMRS. The Supervising Archivist was unaware of the reporting discrepancy
        because there are no verification/reconciliation procedures in place to ensure the
        reported data accurately reflects the collected data.

    •   Several NARA employees responsible for collecting and inputting data into
        PMRS for metrics we reviewed did not validate the data they had input and were
7
 A PIR would provide detailed information such as (1) date of incident, (2) number of hours, (3) cause of
downtime, (4) resolution of incident, and (5) sign-off by a responsible NARA official.

                                            Page 6
                         National Archives and Records Administration
                                                                           OIG Audit Report No. 10-13



       unfamiliar with using PMRS. Thus, a review procedure of comparing inputs to
       outputs is not being completed for all performance metrics.

   •   During the audit we found the data entered into PMRS for four metrics had minor
       errors. Two of these errors were discovered by personnel responsible for
       collecting the data and were corrected during the audit. However, it is
       questionable whether these errors would have been identified and corrected if
       there had not been an ongoing audit of these metrics. The other two metrics with
       minor errors were not corrected during the audit. For example, metric #2.4
       Annual Number of Federal Pages Declassified (in thousands) data input sheets
       showed that 71k pages were declassified for October 2008 while subsequent
       PMRS reports showed that no pages were declassified for that period. Likewise
       metric #6.3 Percent of Public Network Applications Availability did not calculate
       the total number of hours in the period correctly as one application was not
       factored in the total for the month of November. Had NARA implemented a
       verification/review process these errors might have been detected and addressed.

   •   Six of the nine metrics we reviewed lacked detailed written procedures (at the
       business unit level) to provide guidance for the collection of performance data.
       While the remaining three metrics did have written policies addressing the
       procedure for collecting data, they did not include verification/review procedures.

   •   Key personnel we interviewed for four of the metrics stated they do not verify or
       review the performance data they collect and report to PMRS. Lack of written
       procedures, including periodic verification procedures, increases the risk of errors
       in NARA’s performance data.

Recommendation 1

The Archivist should ensure that NPOL establishes and oversees an internal control
environment under which all PMRS metrics have written procedures identifying the
processes for collecting, reporting, and verifying performance data. These written
procedures should address: (1) data management-- specifically identifying how
performance data is documented and maintained and (2) periodic data verification
procedures including reconciliation procedures between source data to data reported in
PMRS. Verification of performance data should be documented and confirmed by a
second party such as a supervisor where appropriate.

Management Comment(s)

Management concurred with this recommendation.




                                        Page 7
                     National Archives and Records Administration
                                                                                         OIG Audit Report No. 10-13



Metric “Percent of Scheduled Transfers of Archival Records
Transferred to NARA at the Scheduled Time” is Misleading

Performance metric #2.1: Percent of Scheduled Transfers of Archival Records
Transferred to NARA at the Scheduled Time (electronic), does not objectively measure
NARA’s performance in receiving permanent and valuable electronic federal records.
While NPOL and the Electronic and Special Media Records Services Division (NWME)
collaborated on the development of this metric it did not yield a satisfactory output or
outcome. The purpose of a performance metric under GPRA is to support the objective
evaluation of a program or function within an agency. The performance result derived
and reported for this metric is misleading as it is based upon a limited subset of records,
not the overall population. Thus, results or outcomes defined by this metric may be
skewed. The effect is that stakeholders may misconstrue the results as reported by
NARA for this critical reporting area.

    The calculation for this metric is as follows:

          # of disposition authorities that produced expected transfers this year X100
          # of disposition authorities expected to produce transfers this year 8

This metric was designed to document NARA’s performance in getting federal agencies
to transfer their electronic records. However, the metric is flawed because all the data
necessary to effectively calculate performance is not readily available or objectively
obtained. Specifically, the following data is excluded from the universe of electronic
records (the denominator of this measurement): (1) any electronic record that has not
been scheduled; 9 (2) electronic records from agencies not subject to the Chief Financial
Officers’ (CFO) 10 Act; (3) electronic records not deemed valuable by the processing
archivist; (4) electronic records from agencies with no consistent history of transferring
records; and (5) any electronic record schedule lacking clarity or specificity 11.

8
  This is the denominator for the metric which states, “During the preceding fiscal year, NARA will have
collaborated with the Chief Financial Officers’ (CFO) agencies (adjusted) to identify specific disposition
authorities that will produce records for NARA during the subsequent fiscal year.”
9
  NWME and NWC officials stated there are many federal agencies that do not schedule their permanent
electronic records because these agencies do not have knowledgeable staff capable of appropriately
identifying and scheduling their records.
10
   Most non-CFO agencies are excluded; however, non-CFO agencies with records of interest such as the
Central Intelligence Agency (CIA) are included because the CIA produces records of archival value.
11
   NARA has recently made several changes to its approach to scheduling records in an effort to make
scheduling easier. NARA officials believe these changes benefit both NARA and the agencies. However,
these changes allow the transfer schedules to contain vague language making it difficult to determine when
to expect a transfer. Specifically, the following record schedules would be excluded from the calculation
of this performance measurement because of the ambiguity of the record schedule: (1) records schedules
which do not identify explicit transfer dates; (2) media neutral schedules which do not specify whether the
permanent record is in textual or electronic format; and (3) ‘big bucket’ scheduling, intended to address
problems associated with the constant need to update schedules, where the schedule does not adequately
identify permanent records.



                                            Page 8
                         National Archives and Records Administration
                                                                                           OIG Audit Report No. 10-13



 As a result of electronic records being excluded from the calculation of this metric,
NARA’s reported performance results for this metric was based on a subjective subset of
the entire universe of records to be transferred. Although this limitation of the scope is
alluded to in NARA’s Performance report, the wording of the measure is misleading and
users of this data could misinterpret the information generated and reported under this
metric to embrace a far wider population then actually defined. This could lead to
inaccurate conclusions and determinations by stakeholders.

Additionally, NWME and NWC 12 officials stated they would like to readdress some of
the merits of this metric with NPOL. In addition to the issues identified above, NWME
and NWC expressed other concerns with this metric including its title which both
NWME and NWC feel is misleading. Specifically, the “at the scheduled time” portion of
the metric title implies federal records have a specific date they are available for transfer.
NWME officials stated the scheduling process is not an exact science, and as such,
cannot be pinned down to specific dates and timeframes. NWC analogized the clarity
and effectiveness of this metric to a contest where the goal is to collect as many shoes as
you could in a set time frame. How effective is your performance when you review the
bucket of shoes and find you have the wrong size, color, or none of the shoes are in
matching pairs? And finally, NWME officials stated they are unsure how the long-term
goal was established (85% of scheduled transfers are received at the scheduled time by
2016). NWME indicated this may not be a realistic goal and would like to collaborate
with NPOL to establish an obtainable goal.

Recommendation 2

We recommend the Directors of NPOL, NWME, and NWC evaluate the merits of the
metric #2.1: Percent of Scheduled Transfers of Archival Records Transferred to NARA at
the Scheduled Time as a performance measure and either remove it from the list of
reported performance metrics or revise it to be more reflective of an objective
measurement.

Management Comment(s)

Management concurred with this recommendation.




12
   This metric measures electronic and traditional records. The traditional records portion of the metric is
slightly different and is implemented by Access Programs (NWC).

                                             Page 9
                          National Archives and Records Administration
                                                                                                OIG Audit Report No. 10-13




                                                                                                  Attachment 1

                       NARA METRICS INCLUDED IN OIG REVIEW


                                                     Metric Verified                       Internal Control
Numeric Metric
                                                                                          Weaknesses Identified
Metric # 2.1 Percent of Scheduled           •   Reported performance data on this
Transfers of Archival Records                   metric is potentially misleading.         No written procedures
Transferred to NARA at the Scheduled
Time (electronic)


Metric # 2.2 Percent of Archival            •   Denominator; NATD 13 for NLDDE:           No written procedures
Traditional Holdings                            missing source documentation.
Processed/Accessible to Researchers                                                       Does not verify data


                                            •   Numerator; not verified: 11%
Metric # 2.4 Annual Number of                   discrepancy between reported data and     No written procedures
Federal Pages Declassified (in                  support documentation.
thousands)                                  •   Minor error detected by auditor and not   Does not verify data
                                                corrected prior to publication of data.

Metric # 2.4 Number of Pages
                                                                                          No written procedures
Completed in the NDI Process (in            •   Data verified.
thousands)
                                                                                          Does not verify data


                                            •   Denominator; NATD: missing source
Metric # 2.7 Percent of Archival
                                                documentation.
Holdings Requiring Preservation                                                           No written procedures
                                            •   Minor error detected and corrected by
Action
                                                auditee during audit.


Metric # 4.2 Percent of Archival            •   Data verified, minor error detected and   Written policy does not address
Holdings (traditional and electronic)           corrected by auditee during audit.
                                                                                          review/verification procedures
Available Online

Metric # 4.3 Percent of NARA                                                              Written policy does not address
                                            •   Data verified.
Holdings Described in ARC                                                                 review/verification procedures

                                                                                          Written policy does not address
Metric # 4.2 Number of ARC Uses             •   Data verified.
                                                                                          review/verification procedures


                                            •   Numerator; NATD: source
                                                documentation is insufficient.            No written procedures
Metric # 6.3 Percent of Public
Network Applications Availability           •   Denominator, minor error detected by
                                                auditor and not corrected prior to        Does not verify data
                                                publication of data.




    13
         Not Able To Determine (NATD).

                                                      Page 10
                                   National Archives and Records Administration
                                                                                                     Appendix 2
                                                                                                     Page I 0[2


                      National Archives and Records Administration
                                                                                         8601 Adelphi Road
                                                                        College Park, Maryland 20740-6001


Date:        June 23, 2010

To:          Paul Brachfeld,
             Inspector General

From:        Susan M. Ashtianie,
             Director, Policy and Planning Staff (NPOl)

Subject:    OIG Draft Report No. 10- 13,
            Audit of the Accuracy ofNARA 's Perfonnance Management Data

            Thank you for the opportunity to review and comment on this draft audit report. We
            appreciate the efforts of your staff and all parties associated with the audit process. We did not
            take advanta·ge of a meeting with the auditor during the comment period, because each point
            below was raised in our exit conference.

            While we concur with intent o[both recommendations, NPOL strongly objects to both of the
            report's findings regarding metric #2. 1; Percent of Scheduled Transfers ofArchival Records
            Transferred to NARA at the Scheduled Time (electronic), a) that thc metric does not
            objectively measure NARA perfonnance in receiving electronic Federal records, and b) that
            NPOl did not effectively collaborate with NWME in its design.

            As to the first , the report alleges that this metric is misleading as it is based upon a limited
           subset ofrecords, not the overall population. The metric is indeed based on a limited subset
           of records for the very good reason that these are all that can be measured. The report suggests
           we add five other kinds of records, but that cannot be done for the very reasons that the report
           includes in its footnotes . For instance, the report suggests we include records from any
           electronic record schedule lacking clarity or specificity. If the schedule lacks specificity as to
           when the records are due, how can we possibly measure whether records are arriving at the
           scheduled time? It cannot be done.

           We have already tried to use a larger universe as the report is suggesting. It didn't · work. In
           2006 and 2007, we based tbis metric on the CASPER database which NWME cleaned up for the
           purpose. (CASPER relates records schedules to accessions.) The attempt failed . T he universe
           was too small, for all the reasons cited in footnote II of the report. At NWME's suggestion,
           we abandoned CAS PER as our data source.

           The current design is Plan B. Despite its limitations, it is a legitimate measure of our success
           in getting the electro nic records owed 10 us. In any case, it is the only option available, the
           ideas in the report having been tried and found to be unworkable.
                                                                                         Appendix 2
                                                                                         Page 2 of2



I    The curnmt design focuses on a smaller but measurable universe and mitigates that deficiency
     by focusing on th e most important records. We ask~rwME to identify at the start of the year
     which records we most want - in consultation with the agencies. We then measure our success
I    in getting them. That should be easy. We should be getting 95%.

    In fuct, we got only 44% in FY2009. Our assertion is that if we can't get the most important
I   records - the ones we identify at the start of the yea r and specifically pursue -then we
    probably are nOt doing anybeUer with the rest of the records except by blind luck. We
    believe that for al! its flaws, this metric is spotlighting a genuine performance problem. For
I   that reason, we intend to keep it.

    As to our supposed lack of collaboration with NWME, the claim is flat wrong. Our mecting
I   notes from January, 2008 show clearly that the current design ojthis metric came/rom NWM.
    not from us. It was their idea! Paul Wester (NWM) as well as senior NWME staff were
    present and had their say. Further, the metric has been used without complaint for two years.

I   As with the earlier CASPER metric, experience may show the need for changes. We are happy
    to work again with NWME to see if that is the case.


I   If you have any questions concerning these comments, please contact Mary Drak via email at
    mary.drak@nara.govorbyphoneat 301-837- 1668.


I
I
    SUSAN M. ASHTlANIE
I   Director, Policy and Planning Staff



I
I
I
I
I
I
l                              NARA·.or _ " <;,~ i. "Iffi:lfwww.orchives.flov
